FILED

NOT FOR PUBLICATION

APR 23 2020

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

U.S. COURT OF APPEALS

19-50059

D.C. No.
3:18-cr-04731-LAB-1

v.
JOSE ZAMUDIO-SILVA,

MEMORANDUM*

Defendant-Appellant.
Appeal from the United States District Court
for the Southern District of California
Larry A. Burns, District Judge, Presiding
Submitted December 13, 2019 **
Pasadena, California
Before: KELLY,*** PAEZ, and BADE, Circuit Judges.
Jose Zamudio-Silva appeals his sentence of twelve month
for illegal reentry following removal in

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
***

The Honorable Paul J. Kelly, Jr., United States Circuit Judge for the
U.S. Court of Appeals for the Tenth Circuit, sitting by designation.

violation of 8 U.S.C. § 1326(a). Zamudio-Silva argues that his within-Guidelines
sentence is procedurally and substantively unreasonable because the district court
considered the transcript from Zamudiodenied a
) § 5K3.1.1 We have jurisdiction pursuant to 28 U.S.C. § 1291 and 18
U.S.C. § 3742. We review sentencing decisions for abuse of discretion, United
States v. Carty, 520 F.3d 984, 993 (9th Cir. 2008) (en banc), and we affirm.
I.
In reviewing sentencing decisions, we first consider whether the district

the §
Gall v. United States, 552 U.S. 38, 51 (2007). If the sentence is procedurally
correct, we then consider

under an

abuse-of-discretion standard. Carty, 520 F.3d at 993. Because Zamudio-Silva did
not assert any procedural objections in the district court, we review his claims of
procedural error only for plain error. See United States v. Valencia-Barragan, 608

1

Zamudio-Silva was sentenced in two matters at the same hearing on February 19,
2019. In the first case, No. 18-CR-4731-LAB, which is the subject of this appeal,
he pleaded guilty to a being a removed alien in the United States, in violation of
8 U.S.C. § 1326. In the second case, No. 18-CR-3446-LAB, the court took judicial
notice of Zamudiohe violated probation. Zamudio-Silva does not appeal his sentence for the
probation violation.
2

F.3d 1103, 1108 (9th Cir. 2010).
This court does not review the district court

of a fast track

departure under USSG § 5K for procedural error. See United States v. RosalesGonzales, 801 F.3d 1177, 1180 (9th Cir. 2015). However, we may consider the
denial of the

departure in our analysis of the substantive

reasonableness of the sentence. See id. at 1180, 1182. Although we do not
presume that a within-Guidelines sentence is reasonable,
correctly calculated Guidelines sentence will normally not be found unreasonable
Carty, 520 F.3d at 988.
II.
Zamudio-Silva argues that the district court committed procedural error at
his February 19, 2019 sentencing hearing by considering the transcript from his
October 1, 2018 sentencing hearing. The same district judge presided at both
hearings. At the October 1, 2018 hearing, Zamudio-Silva was sentenced to
probation, and subsequently removed from the United States, after pleading guilty
to illegal reentry in violation of 8 U.S.C. § 1326. A week later, on October 9,
2018, Zamudio-Silva was found in the United States and again charged with
violating 8 U.S.C. § 1326. At the February 19, 2019 hearing, the district court
sentenced Zamudio-Silva for the October 9, 2018 illegal reentry offense, which is
the subject of this appeal, and for violating the term of probation imposed at the

3

October 1, 2018 sentencing hearing for the earlier illegal reentry offense.
Thus, the transcript of the October 1, 2018 hearing was relevant to Zamudioation violation, which
occurred at the same time as his sentencing in this matter. Although Zamudiostated that he did not have a copy of the hearing transcript, he
nonetheless discussed the earlier sentencing hearing in his arguments at the second
hearing. On appeal, Zamudio-Silva agrees and accepts that [the] district court[]
2

can make notes in the fi

Zamudio-Silva does not explain why the district court could rely on its memory
and notes of the earlier sentencing hearing but could not consider the transcript.
Nonetheless, Zamudio-Silva argues that it was unfair for the district court to
ask questions about his statements at the previous hearing because those questions
-Silva

2

Zamudio-Silva has filed a Rule 28(j) letter citing United States v. Gomez-Gomez,
No. 18-50080, 2019 WL 6839605 (9th Cir. Dec. 16, 2019). In that case, the court
found that the district court plainly erred by relying on an earlier sentencing
transcript without notifying the parties because Rule 32 of the Federal Rules of
Criminal Procedure requires
Id. at *2 (citations
omitted). In Gomez-Gomez
a sentencing two years earlier, before a different judge in a different district. Even
if this unpublished disposition were binding authority, it is distinguishable from
this case. Here, Zamudio-Silva has not argued a violation of Rule 32 or that he
was not provided facts relevant to his sentence. Instead, he was fully aware of the
recent sentencing hearing before the same judge.
4

was being dishonest with the court or that his prior counsel failed to adequately
investigate Zamudio-

Zamudio-

not

, however, was

-Silva describes. Instead, counsel

made several arguments to explain the apparent discrepancies in Zamudiostatements at the two hearings, including the argument he makes again on appeal
that his prior counsel may not have presented certain information because the plea
agreement recommended a time-served sentence

T

le reason

also allowed Zamudio-Silva and his counsel an

opportunity to explain apparent discrepancies in Zamudiotwo hearings. The district court properly considered this information as part of

See 18 U.S.C. § 3553(a)(1). Therefore, the district court did not
err, much less plainly err, by considering the transcript of Zamudiosentencing hearing.
III.
Zamudio-Silva also argues that the district court abused its discretion by
improperly double counting his prior illegal entry conviction to support an

Impermissible double counting occurs when one part of the Guidelines is applied

5

account of a kind of harm that has already
United
States v. Holt, 510 F.3d 1009, 1011 (9th Cir. 2007) (quoting United States v.
Nagra, 147 F.3d 875, 883 (9th Cir. 1998)).
Zamudio-Silva does not argue that the district court abused its discretion by
considering Zamudio-

-level

upward adjustment to his offense level calculation under USSG § 2L1.2. Nor does
he argue that the distr
downward departure under USSG § 5K3.1. Instead, he argues that the district

counting of his prior illegal reentry conviction.
We reject that argument because the district court properly considered
Zamudio-

2L1.1.2 and properly considered

that conviction as part of its decision to deny the § 5K3.1 departure. The district
court did not rely solely on the prior conviction to deny
Instead, the court rejected the

.
-

criminal history, prior deportations, and his numerous other informal removals
from the United
Zamudio-Silva returned to the United States after the court had previously granted
-track departure, and after Zamudio-Silva had promised not to return,

6

supported the sentence as a deterrent to ZamudioThe district court did not abuse its discretion by considering Zamudiopast criminal and immigration history
departure.3 See Rosales-Gonzales, 801 F.3d at 1184 (stating that under § 3553(a),
the

and criminal history to

determine whether to grant fast-track reduction and to determine the proper
sentence). Thus, the record reflects that the district court properly considered
Zamudio-

for a fast track departure and the § 3553(a) factors.

The within-Guidelines
reasonable.
AFFIRMED.

3

Zamudio-Silva also argues that the district court abused its discretion by denying
-Silva had received this
departure for his prior illegal reentry offense. The district court, however, did not
deny the departure on this basis but instead considered several factors in its
decision.
7

